APPENDIX TABLE OF CONTENTS
Appendix A. Order of the Supreme Court of New
Hampshire Denying Motion for Reconsid­
eration and Awarding $4,900.00
(March 29, 2019).................... ............................. . la
Appendix B. Order of the Supreme Court of New
Hampshire Granting Request For Rule 23
Award (February 21, 2019).................................. 2a
Appendix C. Order of the Supreme Court of New
Hampshire Denying Motion for Reconsider­
ation in Separate Case (2018-0483)
(February 21, 2019)......................................... .
3a
Appendix D. Final Order of the Supreme Court of
New Hampshire on the Merits
(November 30, 2018)............................................. 5a
Appendix E. Original Order of the New Hampshire
Circuit Court Appealed (May 11, 2018)........... 12a

App.la
APPENDIX A
ORDER OF THE SUPREME COURT OF
NEW HAMPSHIRE DENYING MOTION FOR
RECONSIDERATION AND AWARDING $4,900.00
(MARCH 29, 2019)
THE STATE OF NEW HAMPSHIRE
SUPREME COURT
PAUL MARAVELIAS,
v.
DAVID DEPAMPHILIS.
Case No. 2018-0376
Before: LYNN, C.J., and HICKS,
BASSETT, and HANTZ-MARCONI, JJ.
After review, the plaintiffs motion for reconsid­
eration of the February 21, 2019 order concerning
attorney’s fees is denied. The defendant is hereby
awarded attorney’s fees pursuant to Rule 23 in the
amount of $4,900.
Lynn, C.J., and Hicks, Bassett, and Hantz Marconi,
JJ., concurred.
Eileen Fox
Clerk

App.2a
APPENDIX B
ORDER OF THE SUPREME COURT
OF NEW HAMPSHIRE GRANTING
REQUEST FOR RULE 23 AWARD
(FEBRUARY 21, 2019)
THE STATE OF NEW HAMPSHIRE
SUPREME COURT
PAUL MARAVELIAS,
v.
DAVID DEPAMPHILIS
Case No. 2018-0376
Before: LYNN, C.J., and HICKS,
BASSETT, and HANTZ-MARCONI, JJ.
The defendant’s request for taxation of costs and
the award of attorney’s fees is granted. See Rule 23.
Costs are awarded in the amount of $65.45, which
the defendant represents to be the cost of reproducing
and binding his brief and attached appendix.
On or before March 4, 2019, the defendant shall
file an itemization of the attorney’s fees that he is
seeking.
Lynn, C.J., and Hicks, Bassett, and Hantz Marconi, JJ.,
concurred.
Eileen Fox
Clerk

App.3a
APPENDIX C
ORDER OF THE SUPREME COURT
OF NEW HAMPSHIRE DENYING MOTION FOR
RECONSIDERATION IN SEPARATE
CASE (2018-0483)
(FEBRUARY 21, 2019)
THE STATE OF NEW HAMPSHIRE
SUPREME COURT
CHRISTINA DEPAMPHILIS
v.
PAUL MARAVELIAS.
Case No. 2018-0483
Before: LYNN, C.J., and HICKS,
BASSETT, and HANTZ-MARCONI, JJ.
Supreme Court Rule 22(2) provides that a party
filing a motion for rehearing or reconsideration shall
state with particularity the points of law or fact that
he claims the court has overlooked or misapprehended.
We have reviewed the claims made in the motion
for reconsideration and conclude that no points of law
or fact were overlooked or misapprehended in our
decision. Accordingly, upon reconsideration, we affirm
our January 16, 2019 decision and deny the relief
requested in the motion.
Relief requested in motion for reconsideration
denied.

App.4a

Lynn, C.J., and Hicks, Bassett, and Hantz Marconi, JJ.,
concurred.

Eileen Fox
Clerk

App.5a
APPENDIX D
FINAL ORDER OF THE SUPREME COURT OF
NEW HAMPSHIRE ON THE MERITS
(NOVEMBER 30, 2018)
THE STATE OF NEW HAMPSHIRE
SUPREME COURT
PAUL MARAVELIAS,
v.
DAVID DEPAMPHILIS.
Case No. 2018-0376
Before: LYNN, C.J., and HICKS,
BASSETT, and HANTZ-MARCONI, JJ.
The plaintiffs motion to strike the defendant’s
brief is denied. The defendant’s motion to transfer
the record and exhibits from the trial court is denied.
The appealing party is obligated to provide the record
upon appeal. Bean v. Red Oak Prop. Mgmt., 151 N.H.
248, 250 (2004). The defendant’s motion to strike ex­
hibits and argument that are not part of the record is
granted in part and denied in part. To the extent
that the defendant seeks to strike exhibits appended
to the plaintiffs reply brief that were not admitted by
the trial court, and argument relying upon them, the
motion is granted. To the extent that the defendant
requests attorney’s fees in connection with the motion,
the request is denied without prejudice to the defendant

App.6a
moving for attorney’s fees pursuant to Supreme Court
Rule 23.
Having considered the briefs and that portion of
the record properly submitted bn appeal, we conclude
that oral argument is unnecessary in this case. See
Sup. Ct. R. 18(l). We affirm.
The plaintiff, Paul Maravelias, appeals orders of
the Circuit Court (Coughlin, J.), following a threeday bench trial, ruling in favor of the defendant,
David DePamphilis, on his stalking petition, see RSA
633:3-a (Supp. 2017), and awarding the defendant
attorney’s fees and costs. We construe the plaintiffs
brief to contend that the trial court was compelled to
find in his favor on the stalking petition and that it
erred by awarding the defendant attorney’s fees and
costs.
We first address whether the trial court erred as
a matter of law in denying the stalking petition. In
reviewing a trial court’s decision rendered after a
trial on the merits, we uphold the trial court’s factual
findings and rulings unless they lack evidentiary sup­
port or are legally erroneous. O’Malley v. Little, 170
N.H. 272, 275 (2017). We do not decide whether we
would have ruled differently than the trial court, but
rather, whether a reasonable person could have reached
the same decision as the trial court based upon the
same evidence. Id. Thus, we defer to the trial court’s
judgment on such issues as resolving conflicts in the
testimony, measuring the credibility of witnesses, and
determining the weight to be given evidence. Id. We
review the trial court’s application of the law to the
facts de novo. Id.

App.7a
The offense of stalking includes “[p]urposely, know­
ingly, or recklessly engaging] in a course of conduct
targeted at a specific person which would cause a rea­
sonable person to fear for his or her personal safety,”
when the targeted person “is actually placed in such
fear.” RSA 633:3-a, 1(a). “Course of conduct” is defined
as “2 or more acts over a period of time, however short,
which evidences a continuity of purpose.” RSA 633:3-a,
11(a). Such acts are not limited to those that are tar­
geted against the person directly, but include threats
against the targeted person’s immediate family. Fisher
v. Minichiello, 155 N.H. 188, 19192 (2007). However,
such acts do not “include conduct that was necessary to
accomplish a legitimate purpose independent of mak­
ing contact with the targeted person.” RSA 633:3-a,
11(a).
In this case, the plaintiff based his December
2017 stalking petition upon “three major incidents”:
(l) in December 2016, the defendant made angry
telephone calls to the plaintiff and his father after
the plaintiff attempted to give the defendant’s daughter
a Maserati sports car for her sixteenth birthday; (2)
in March 2017, the defendant checked to ascertain
whether the plaintiff was within the vicinity of the
defendant’s property, drove toward the police station,
and spoke with a police officer after he received an
anonymous letter, which the plaintiff later admitted
to have “aided in” composing, that excoriated the
defendant, his daughter, and her boyfriend in obscene
terms; and (3) in June 2017, the defendant’s daughter
posted a photograph on a social media site depicting
her, her boyfriend, and the defendant making an
obscene hand gesture and captioned it “did Dartmouth
teach you how to do this,” a reference to the plaintiffs

App.8a
alma mater. We note that the plaintiff testified that
he had had no direct contact with the defendant since
December 2016.
Neither the plaintiff nor his father testified that
the defendant threatened them during the December
2016 “angry” phone calls. The plaintiff testified that
he was out of the country when the defendant received
the anonymous letter and did not learn that the
defendant had searched around his house and driven
toward the police station until months after the fact.
The plaintiff testified that the defendant’s daughter,
and not the defendant, posted the photo and caption,
which the plaintiff had previously characterized as
“puerile” and “risible.” He further testified that the only
reason he saw the photo was because he was tracking
the daughter’s social media sites. To the extent that
the plaintiff likens his situation to those in Fisher
and State v. Simone, 152 N.H. 755 (2005), we disagree.
See Fisher, 155 N.H at 189 (stating defendant left 45
minute voice mail message threatening plaintiff with
retaliation and kept plaintiffs staff on phone for hours);
Simone, 152 N.H. at 760 (stating defendant called
plaintiff up to 20 times a day and told plaintiff that
he was suicidal and out of control).
The plaintiff argues that the trial court erred by
finding no credible evidence that the “three major
incidents” occurred. However, the trial court found
that he “did not provide any credible evidence of the
allegations set forth in the petition . . . that the . . .
Defendant committed acts of stalking as defined under
RSA 633:3-a.” (emphasis added), not that the acts them­
selves never occurred. To the extent that the trial court
paraphrased this finding in its order on attorney’s
fees, this did not alter the original finding. Moreover,

App.9a
the trial court found “that any action(s) taken by the
[defendant] were reasonable and necessary and for a
legitimate purpose [,] i.e. protection of his minor daugh­
ter and family.” See RSA 633:3-a, 11(a).
The plaintiff raises a number of additional argu­
ments in his brief regarding the denial of his peti­
tion. As the appealing party, he has the burden of
demonstrating reversible error. Gallo v. Traina, 166
N.H. 737, 740 (2014). Based upon our review of the
record, we conclude that the trial court’s determination
that the acts identified by the plaintiff did not con­
stitute stalking is supported by the record and not
legally erroneous. See O’Malley, 170 N.H. at 275.
We next address whether the trial court erred in
awarding the defendant attorney’s fees and costs.
Although the general rule in New Hampshire is that
parties pay their own attorney’s fees, an award of
attorney’s fees is appropriate when one party has acted
in bad faith, vexatiously, wantonly, or for oppressive
reasons. Fat Bullies Farm, LLCv. Devenport, 170 N.H.
17, 30 (2017). When attorney’s fees are awarded against
a private party who has acted in bad faith, the pur­
pose is to do justice and vindicate rights, as well as to
discourage frivolous lawsuits. Id.
We will not overturn the trial court’s decision con­
cerning attorney’s fees absent an unsustainable exer­
cise of discretion. Id. To warrant reversal, the discretion
must have been exercised for reasons clearly untenable
or unreasonable to the prejudice of the objecting party.
Id. We give tremendous deference to a trial court’s
decision regarding attorney’s fees. Id. If there is some
support in the record for the trial court’s determina­
tion, we will uphold it. Id. To the extent that the
plaintiff argues that RSA 633:3-a does not authorize

App.lOa
an award of attorney’s fees, statutory authority is not
required for an award of attorney’s fees based upon a
litigant’s bad faith. See id.
In this case, the trial court found that the plaintiffs
“stalking petition . . . was oppressive, vexatious, arbi­
trary, capricious and/or in bad faith” and that the
plaintiffs “positions were patently unreasonable.”
Contrary to the plaintiffs argument, attorney’s fees
may be awarded when the party has filed only one
action against the other party in bad faith. See Keenan
v. Fearon, 130 N.H. 494, 502 (1988) (stating that court
may award counsel fees in any action commenced,
prolonged, required or defended without any reasonable
basis in the facts provable by evidence, or any reason­
able claim in the law as it is, or as it might arguably
be held to be). To the extent that the plaintiff argues
that the trial court’s denial of the defendant’s motion
to dismiss at the close of the plaintiffs case precluded
its subsequent finding that the plaintiff acted in bad
faith, the standards for each determination are distinct.
See Kukene v. Genualdo, 145 N.H. 1, 4 (2000) (stating
denial of summary judgment does not per se preclude
finding of bad faith). To the extent that the plaintiff
argues that he did not act in bad faith, based upon
our review of the record, we conclude that the trial
court’s determination is supported by the evidence and
not legally erroneous. See Fat Bullies, 170 N.H. at 30.
To the extent that the plaintiff argues that a
$61.95 expense dated October 25, 2017, was errone­
ously included in the trial court’s award, the defend­
ant waives this expense in his brief.
Any remaining issues raised by the plaintiff in
his brief either are not sufficiently developed, see
State v. Blackmer, 149 N.H. 47, 49 (2003), or otherwise

App.lla

do not warrant further discussion, see Vogel v. Vogel,
137 N.H. 321, 322 (1993).
Affirmed.
Lynn, C.J., and Hicks, Bassett, and Hantz Marconi, JJ.,
concurred.

Eileen Fox
Clerk

App.l2a
APPENDIX E
ORIGINAL ORDER OF THE NEW HAMPSHIRE
CIRCUIT COURT APPEALED
(MAY 11, 2018)
THE STATE OF NEW HAMPSHIRE
JUDICIAL BRANCH, NH CIRCUIT COURT
10TH CIRCUIT-DISTRICT DIVISION-DERRY
PAUL MARAVELIAS,
v.
DAVID DEPAMPHILIS.
Case No. 473-2017-CV-00150
DV/Stalking Notice of Decision
Before: Hon. John J. COUGHLIN, Judge
Please be advised that on May 11, 2018 Hon John
J. Coughlin made the following order relative to:
Order (on Attorney’s Fees) and Motion to Strike
/s/ Robin E. Pinelle
Clerk of Court
May 11, 2018

App.l3a
ORDER
On May 3, 2018 the court held a hearing on the
Petitioners Motion for Award of Attorney’s Fees and
the Petitioner’s objection there to. Based upon the
pleadings and argument, the court finds that the
Petitioner’s stalking petition filed against the Petitioner
and thoroughly litigated at a final hearing was oppres­
sive, vexatious, arbitrary, capricious and/or in bad faith
and further the Petitioner’s position were patently un­
reasonable as the court found that the, “Petitioner
did not provide any credible evidence of the allegations
as set forth in the petition. (See Court Order dated
2/22/18. Daigle v. City of Portsmouth, 137 N.H. 572
(1992) and Harkeem v. NH Dept, of Employment
Security, 117 N.H. 687 (1977))
Therefore, the court grants the Petitioner’s request
for Attorney’s fees and awards Attorney’s fees in the
amount of $8,775 plus costs in the amount of $254.51.
The Attorney’s fees and costs shall be paid by the
Petitioner within 30 days.
/s/ John J. Coughlin
District Court Judge
Date: 5/11/2018

